                                                                                                   I




                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS




         A prohive review of awards with multiple no-cost extensions revealed an award' in which the
         PI* requested a fourth no-cost extension. This investigation was initiated to determine whether
         NSF grant funds were at risk.

         Investigation revealed that the purpose of the award was solely to         a piece of
         equipment3. However, the vendor had not yet met all of the specifications of the contract.
         Therefore, the PI was withholding the remaining funds until the vendor completes its work on the     i
                                                                                       /


         In light of the fact that there is no evidence of wrongdoing, that the PI appears to be protecting
         the grant funds by holding back full payment to the vendor until all of the specificationse!a met,   '
         and that the NSF Program Director has no concerns regarding the financial management of this
         award, no further investigation is warranted.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
